                            SOCIAL SECURITY
                                                                         Inspector General

                                                 November 14, 2003

The Honorable Herb Kohl
United States Senate
Washington, D.C. 20510

Dear Senator Kohl:

I want to thank you for your interest in the Social Security Administration’s Office of
Hearings and Appeals. In a June 18, 2003 letter, you requested that we review the
operation of the Social Security Administration’s Office of Hearings and Appeals in
Milwaukee, Wisconsin. We have completed our work. The results of our review are
discussed in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. We have provided copies of the enclosed
report to Senator Russell Feingold and Congressman Jerry Kleczka. If you have any
questions concerning this matter, please call me or have your staff contact H. Douglas
Cunningham, Executive Assistant, at (202) 358-6319.


                                                 Sincerely,




                                                 James G. Huse, Jr.


Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals
                           SOCIAL SECURITY
                                                                      Inspector General

                                               November 14, 2003

The Honorable Russell D. Feingold
United States Senate
Washington, D.C. 20515

Dear Senator Feingold:

I want to thank you for your interest in the Social Security Administration’s Office of
Hearings and Appeals. In a June 19, 2003 letter, you requested that we review the
operation of the Social Security Administration’s Office of Hearings and Appeals in
Milwaukee, Wisconsin. You also asked what is being done to reduce the lengthy delays
found at Offices of Hearings and Appeals nationwide. We have completed our work
and included the results of our review in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. We have provided copies of the enclosed
report to Senator Herb Kohl and Congressman Jerry Kleczka. If you have any
questions concerning this matter, please call me or have your staff contact H. Douglas
Cunningham, Executive Assistant, at (202) 358-6319.


                                               Sincerely,




                                               James G. Huse, Jr.


Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals
                            SOCIAL SECURITY
                                                                         Inspector General

                                                 November 14, 2003

The Honorable Jerry Kleczka
House of Representatives
Washington, D.C. 20515

Dear Mr. Kleczka:

I want to thank you for your interest in the Social Security Administration’s Office of
Hearings and Appeals. In a June 18, 2003 letter, you requested that we review the
operation of the Social Security Administration’s Office of Hearings and Appeals in
Milwaukee, Wisconsin. We have completed our work. The results of our review are
discussed in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. We have provided copies of the enclosed
report to Senators Russell Feingold and Herb Kohl. If you have any questions
concerning this matter, please call me or have your staff contact H. Douglas
Cunningham, Executive Assistant, at (202) 358-6319.


                                                 Sincerely,




                                                 James G. Huse, Jr.


Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals
CONGRESSIONAL RESPONSE
       REPORT
        Operations at the
Social Security Administration’s
    Milwaukee, Wisconsin,
Office of Hearings and Appeals


          A-13-03-23091




         November 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                          Background
OBJECTIVES

Our objectives were to

•   determine the status of actions taken in response to the Social Security
    Administration’s (SSA) Office of Hearings and Appeals (OHA) review of its
    Milwaukee Hearing Office,

•   determine whether the actions taken addressed the deficiencies identified, and

•   identify OHA initiatives to reduce processing delays occurring in OHAs nationwide.

BACKGROUND

SSA administers two programs that provide benefits based on disability: the Disability
Insurance (DI)1 and Supplemental Security Income (SSI) programs.2 The State
Disability Determination Services (DDS) make disability determinations under both
programs.3 A claimant whose application is denied at the DDS may request a hearing.

OHA is responsible for conducting hearings and issuing decisions determining whether
a person may receive benefits. Hearings are held before an administrative law judge
(ALJ), who conducts the hearing and issues a written decision. Cases involving
disability under the DI and SSI programs account for 90 percent of OHA's work. The
remainder consists of claims made under the Retirement and Survivors Insurance
program, Medicare, and non-disability claims under the SSI program. The OHA
organization consists of 10 regional offices and approximately 140 hearing offices.

The OHA Chicago Regional Office conducted a review of the Milwaukee Hearing Office
(MHO) operations in February 2003. The review was conducted by a team of
14 reviewers who identified deficiencies in the MHO’s operations. Most of the
deficiencies pertained to caseload management; decision writing; administrative issues;
computer systems; and health, safety, and security issues.

In its April 15, 2003 report, the review team identified 88 actions to address the
identified deficiencies. The Regional Chief ALJ designated the MHO as an “Office in
Need of Assistance.”



1
  Title II of the Social Security Act; § 223 of the Social Security Act, 42 USC 423; 20 CFR 404.1601
et.seq.
2
  Title XVI of Social Security Act; § 1601 et.seq of the Social Security Act, 42 USC 1381 et.seq, 20 CFR
416.1001 et.seq.
3
  Section 221 of the SS Act, 42 USC 421; 20CFR 404.1601 et.seq. and 416.1001 et.seq.
Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                                  1
In a June 18, 2003 letter, Senator Herb Kohl and Congressman Jerry Kleczka
expressed concern about constituents not receiving the level of service they deserve
from the MHO. Further, in a June 19, 2003 letter, Senator Russell Feingold also wrote
about problems concerning MHO. They requested that we investigate the MHO’s
operations.

As a result of these requests, our Office of Investigations (OI) completed an
investigation and our Office of Audit conducted an assessment of MHO’s operations.




Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                2
                                                    Results of Review
OI conducted an investigation focusing on several allegations concerning the MHO.
Investigators found no evidence of criminal activity. However, the investigation did
identify mismanagement and employee performance concerns. OHA management is
taking corrective action to address these concerns.

As of August 14, 2003, MHO had implemented most of the actions recommended by
the Chicago Regional Office to address problematic conditions. The remaining action
items were either partially completed or not implemented. MHO management stated it
planned to implement the remaining actions by December 30, 2003. Our observations
indicated the actions taken addressed the identified deficiencies.

We identified a number of additional issues that need to be addressed. One issue
pertains to the timely processing of claimant cases. We also identified two issues
related to the physical security at the Milwaukee, Wisconsin, location. Finally, we
obtained information from SSA officials about initiatives the Agency has implemented
and the Commissioner of Social Security (Commissioner) long-term strategy to reduce
the lengthy delays at hearing offices nationwide.

Status of Actions to Address Problematic Conditions Identified in April 2003
Report

The Chicago Regional Office’s April 15, 2003 report identified problems concerning the
operations of MHO. The report identified 88 action items the MHO should implement to
address these deficiencies. As of August 14, 2003, MHO had implemented 64 of these
actions. Actions implemented included recording approximately 1,230 cases in the
Hearing Office Tracking System and eliminating the accumulation of unopened mail.

The remaining 24 action items were either partially completed or had not been
implemented at the time of our office visit in August 2003. MHO management has since
reported that all but one item has been implemented. The remaining item is expected to
be implemented by December 30, 2003. We did not verify actions MHO took after our
August 2003 visit. See Appendix B for a detailed list of the action items and status
information.




Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                  3
         Figure 1: Status of the 88 Corrective Action Items as of August 14, 2003



                     Partially Completed
                     or Planned
                       27 %




                                                                        Completed
                                                                          73 %




SSA’s Chicago Regional Office informed us that it plans to continue monitoring MHO’s
performance. The Chicago Regional Office sent a “corrective action team” to the MHO
the weeks of June 9, 2003 and August 4, 2003, to follow up on work previously
completed by the Chicago Regional Office. In addition, Chicago Regional Office
management stated it plans to conduct unannounced visits to the MHO over the next
2 years.

During our review, we verified the MHO had implemented 64 of the action items
recommended by the Chicago Regional Office. Our review indicated the actions taken
addressed the identified deficiencies.

Additional Issues Identified During Our Review

Timely Processing of Claimant Cases

Since Fiscal Year (FY) 2000, the number of “backlog”4 claimant cases has increased
substantially (see Table 1). The backlog of cases increased 91 percent (from 4,237 in
FY 2002 to 8,059 in FY 2003). Table 1 reflects some critical trend statistics for MHO for
the last 7 years. We have highlighted the backlog of cases per available ALJ.




4
    Backlog includes all cases that are in-process from the date a hearing was requested to the notice date
    of the decision.

Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                                    4
                                     Table 1: Milwaukee Hearing Office

                                    FY 1997      FY 1998          FY 1999    FY 2000 Y FY2001    FY 2002    FY 2003
    Backlog (year end)                 4,272        3,688            3,934      2,676    3021       4,237        8059
    Backlog/Available ALJ5               327          265              289        289      411        578         973
    New cases/Day/ALJ                   1.49         1.34             1.63       2.25     2.52       2.08         3.31
    Processing Days                      410          392              374        300      290        346         354
    Dispositions/ALJ/Day                1.76         1.61             1.79       2.04     2.14       2.03        2.02

    Number of Available ALJs            13.05        13.93           13.61       9.25     7.35       7.33           8.28
Source: Hearing Office Tracking System unless other wise noted.


The number of backlogged cases per ALJ increased from 578 to 973 at the end of
FY 2003. MHO is also experiencing higher growth in the number of new cases per day
for each ALJ than most of the other hearing offices nationwide. Through the 3rd quarter
of FY 2003, MHO was ranked 14th of 140 hearing offices nationwide in the number of
new cases per day for each ALJ. Additionally, case management data indicated MHO
was ranked 79th of 140 hearing offices in the number of days it took to process a case
and was ranked 117th nationally for the number of dispositions issued per day per ALJ.

Although the backlog has increased over the last several years, MHO staffing levels
have decreased. For example, since FY 2000, MHO has not been able to fill four
vacant ALJ positions.6 Since February 2002, the office has not been able to hire
employees for six vacant support staff positions.7 However, after our review, we
learned the MHO had hired eight new support staff personnel.

We inquired as to why there had been a significant increase in new cases received.
The MHO reported that it attributed the increase to three factors: (1) a downturn in the
Milwaukee economy, (2) an acceleration of both initial and reconsideration claims by the
Wisconsin DDS, and (3) the aging of “baby boomers.”

According to MHO, a downturn in the local and regional economy has forced
corporations to scale back, causing the unemployment rate to increase and ultimately
resulting in more people applying for disability benefits. Also, because the Wisconsin
DDS has increased the number of claims it is processing, there is a strong likelihood
that the number of appeals going to OHA on denied cases will increase as well. Finally,
as the “baby boomers” continue to turn 50, there has been an associated increase in
the number of disability claims filed.

5
  These numbers are a mathematical calculation determined by dividing the backlog “value” by the
“available ALJs,” as reported in the Hearing Office Tracking System.
6
  SSA’s ability to hire ALJs was severely limited due to the litigation in Azdell v. Office of Personnel
Management. 87 M.S.P.R. 133 (2000), aff'd on reconsideration, 89 M.S.P.R. 88 (2001), rev'd sub nom.
Meeker v. Merit Systems Protection Board, 319 F.3d 1368 (Fed. Cir. 2003), petition for cert. filed sub
nom. Azdell v. James, 72 U.S.L.W. 3310 (U.S. Oct. 22, 2003) (No. 03-624). On July 23, 2003, the U.S.
Court of Appeals for the Federal Circuit issued a mandate, which implemented the Court's decision at 319
F. 3d 1368. Office of Personnel Management has reactivated the ALJ register and is in position to begin
issuing “certificates of eligibles,” to allow agencies to hire new ALJs.
7
  The position vacancies were reported as of August 14, 2003.
Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                                           5
If management does not address the backlog, we estimate claimants could be waiting
on average about 1.6 years before issuance of a decision notice on their claim. This is
an increase from about 1 year in FY 2002. We requested the Chicago Regional Office
identify what actions it plans to take to address the growing backlog. Its response
follows.

•   The Deputy Commissioner for Disability and Income Security Programs is looking
    into expediting the installation of video teleconference technology in the Milwaukee,
    Wisconsin, and Marquette, Michigan, locations by the close of Calendar Year 2003.
    The longer term goal is to install similar equipment in offices located in other cities
    served by MHO. This would negate the need for physical travel, which would allow
    for more efficient processing of the claimant cases for these cities.

•   The Deputy Commissioner for Disability and Income Security Programs has been
    given a proposal to make Marquette, Michigan, an official satellite office. This will
    entail staffing the Marquette hearing office with judges, clerks, writers, management,
    etc. Therefore, the caseload for the Marquette location would go to the Marquette
    office, not Milwaukee. Thus, Milwaukee ALJs would not have to travel to Marquette.

•   The Regional Chief ALJ has instructed MHO to prepare for visiting ALJs to assist
    with its caseload in FY 2004. Initially, ALJs from Evanston, Chicago South,
    Oakbrook Terrace, and Peoria will be traveling to MHO to ease the pressure of
    climbing receipts.

•   MHO initially reported it would use the assistance of contractor file assembly and
    hearing office “case work-up” personnel to prepare cases for the assisting office.8
    However, as of October 2003, SSA stated MHO will not be using contractors for file
    assembly in FY 2004. In addition, MHO is scheduled to hire up to 10 new staff
    members.

•   The Regional Chief ALJ is anticipating hiring new ALJs in FY 2004 to be added to
    Milwaukee’s roster.

Office Security

We identified two issues related to the physical security at MHO. Those issues pertain
to access to a secured area within the MHO and the office alarm system.

We brought these security issues to MHO management’s attention. The Hearing Office
Chief ALJ took action to address the issue of unauthorized access to the secured area.
In addition, MHO management took action concerning the operation and use of the
alarm system.

8
 The Office of the Inspector General is reviewing contractor file assembly activities at the OHA Chicago
Regional Office.

Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                                  6
OHA Nation-wide Initiatives to Reduce the Lengthy Processing Delays

According to OHA officials, MHO has implemented eight OHA nationwide initiatives to
reduce claimant case processing delays. In addition, on September 25, 2003, the
Commissioner testified before the House Ways and Means Committee, Subcommittee
on Social Security, on a long-term strategy for improving the overall disability
determination process. Below is the Agency’s brief description of each initiative and the
Commissioner’s long-term strategy.

Initiatives Implemented by SSA

        Early Screening and Analysis by Administrative Law Judges. ALJs and
other professional hearing office employees screen and analyze cases that meet certain
criteria early in the hearing process and assist in identifying “on-the-record” decisions
and dismissals. Early screening and analysis may also aid in expediting pre-hearing
development of the claimant file in other cases.

         Favorable Electronic Decisional Shell Computer Software Program. OHA
has implemented a new decision writing computer software program. The program is
intended to be used by ALJs and decision writers to fully document the legal basis for
“fully” favorable decisions. Use of the computer software program should reduce the (1)
time it takes ALJs and staff to prepare favorable decisions and (2) processing time for
favorable decisions. This technology should result in faster service to the claimant.

       Bench Decisions. At the close of hearings, ALJs have the opportunity to issue
favorable disability decisions orally from the bench. Findings of fact, conclusions of law,
and rationale for decisions are read into the hearing’s official record. Issuing a
favorable “bench decision” eliminates the need to devote attorney and paralegal
resources to drafting favorable decisions. Also, processing time for claimant case
decisions issued from the bench is significantly reduced.

       Speech Recognition Software. OHA is providing speech recognition software
to ALJs and decision writers to facilitate the timely drafting of decisions. This software
eliminates the need for the ALJs and writers to use a keyboard to compose their
decisions.

      Case Transfers/Travel Dockets. OHA uses intra- and inter-regional transfers of
ALJs to more efficiently use resources and balance workloads. OHA also arranges for
ALJs to travel to assist hearing offices, when required.

        Creation of Law Clerk (Attorney Intern) Position. Each OHA Regional Office
has hired a law clerk/attorney advisor to assist the Regional Chief ALJ. The law clerk
(attorney intern) performs a multitude of assignments to help improve the effectiveness
of its hearing offices.




Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                    7
        Expanding Use of Video Teleconference Hearings. During FYs 2003 and
2004, additional video teleconference equipment will be installed in remote hearing
offices so hearings may be scheduled or rescheduled immediately. As a result, such
activity will no longer have to be delayed until the next scheduled visit by an ALJ.
Currently, 20 hearing offices have access to this technology. OHA plans to purchase
another 111 units in FY 2004.

        Contract File Assembly.9 OHA awarded contracts to assemble claimant case
files. SSA reports using contractors has enabled its staff to perform other critical
functions. Contractors focus on assembly of claimant case files, while hearing office
staff performs case development, analysis and scheduling.

Commissioner’s Long-term Strategy

While testifying before the House Ways and Means Committee, Subcommittee on
Social Security, the Commissioner explained AeDib (Electronic Disability) is a major
Agency initiative that will move all components involved in disability claims adjudication
and review to an electronic business process through the use of an electronic disability
folder. Implementation of an electronic disability folder is essential for process
improvements. Therefore, structurally, the long-term strategy for achieving process
improvements is predicated on successful implementation of an electronic disability
system.

The Commissioner’s approach to disability process improvement incorporates some of
the features of the current disability process. For example, initial claims for disability will
continue to be handled by SSA’s field offices. The State DDSs will continue to
adjudicate claims for benefits, and ALJs will continue to conduct hearings and issue
decisions. However, the Commissioner’s approach envisions some significant
differences.

In testimony before the Subcommittee on Social Security, the Commissioner explained
the use of a “Quick Decision” step at the earliest stages of the claims process for people
who are obviously disabled. Cases will be sorted based on disabling conditions for
early identification and expedited action. Examples of such claimants would be those
with aggressive cancers and end-stage renal disease. Once a disability claim has been
completed at an SSA field office, these Quick-Decision claims would be adjudicated in
Regional Expert Review Units nationwide, without going to a State DDS.

This approach, as reported by SSA, would have the two-fold benefit of allowing the
claimant to receive a decision as soon as possible and the State DDSs to devote
resources to more complex claims.



9
 The Office of the Inspector General is currently reviewing contractor file assembly activities at the OHA
Chicago Regional Office.


Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                                   8
During the September testimony, the Commissioner discussed the centralized medical
expertise within the Regional Expert Review Units would be available to disability
decisionmakers at all levels, including the DDSs and OHA. These units would be
organized around clinical specialties, such as musculoskeletal, neurological, cardiac,
and psychiatric. Most of these units would be established in SSA’s regional offices.

Initial claims not adjudicated through the Quick-Decision process would be decided by
the DDSs. However, the Commissioner also proposed some changes in the initial
claims process that would require changes in the way DDSs are currently operating. An
in-line quality review process managed by the DDSs and a centralized quality control
unit would replace the current SSA quality control system. The Agency believes a shift
to in-line quality review would provide greater opportunities for identifying problem areas
and implementing corrective actions and related training.

The Commissioner also discussed the following actions.

•   The Disability Prototype would be terminated, and the DDS reconsideration step
    would be eliminated. Regional Expert Review units would also provide the DDSs
    medical expertise.

•   State DDS examiners would be required to fully document and explain the basis for
    their determinations. More complete documentation should result in more accurate
    initial decisions. The increased time required to accomplish this would be supported
    by redirecting DDS resources resulting from Quick-Decision cases being handled by
    the expert units, the elimination of the reconsideration step, and the shift in medical
    expertise responsibilities to the regional units.

•   A Reviewing Official (RO) position would be created to evaluate DDS-denied claims.
    If a claimant files a request for review of the DDS determination, the claim would be
    reviewed by an RO. The RO, who would be an attorney, would be authorized to
    issue an allowance decision or to concur in the DDS denial of the claim. If the claim
    is not allowed by the RO, the RO will prepare either a Recommended Disallowance
    or a Pre-Hearing Report. A Recommended Disallowance would be prepared if the
    RO believes the evidence in the record shows the claimant is ineligible for benefits.
    It would set forth in detail the reasons the claim should be denied.

•   A Pre-Hearing Report would be prepared if the RO believes the evidence in the
    record is insufficient to show the claimant is eligible for benefits but also fails to show
    the claimant is ineligible for benefits. The Report would outline the evidence needed
    to fully support the claim. Disparity in decisions at the DDS level has been a long-
    standing issue, and the RO and creation of Regional Expert Medical Units is
    expected to promote consistency of decisions at an earlier stage in the process.

•   The Appeals Council stage of the process would be eliminated. The Appeals
    Council role is that it may review the decision made by the ALJ upon a request from
    a claimant.

Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                       9
While these changes are being implemented to improve the process, SSA plans to
conduct several demonstration projects aimed at helping people with disabilities return
to work. These projects would support the President’s New Freedom Initiative and
provide work incentives and opportunities earlier in the process.

The Commissioner believes these changes and demonstrations offer a number of
important improvements, such as

•   people who are obviously disabled will receive quick decisions;
•   adjudicative accountability will be reinforced at every step in the process;
•   processing time will be reduced by at least 25 percent;
•   decisional consistency and accuracy will be increased; and
•   barriers for those who can and want to work will be removed.

We asked staff within OHA about how the Agency plans to determine whether these
initiatives resulted in reducing processing delays of disability claimant cases. SSA staff
responded that, as a group, the initiatives are designed, among other things, to reduce
processing time. For example, the Agency providing an earlier hearing date through the
use of video teleconferencing to a claimant at a remote hearing site. It was further
explained the Agency regularly tracks each initiative and uses the information to
determine the progress of its implementation. The tracking also helps identify the need
for any adjustments to SSA’s strategy. SSA staff stated, although the Agency cannot
presently directly correlate the initiatives either singly or in combination with a specific
improvement in processing time, they are confident the initiatives will have a favorable
effect.




Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                    10
                                        Appendices
Appendix A – Scope and Methodology

Appendix B – April 15, 2003 Action Items and Status as of
             August 14, 2003




Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)
                                                                        Appendix A

Scope and Methodology
We collected and analyzed information specific to the concerns raised by Senators Kohl
and Feingold and Representative Kleczka regarding the Office of Hearing and Appeals
(OHA). To determine the status of actions identified in the April 2003 Chicago Regional
OHA report, we visited the Milwaukee, Wisconsin, OHA hearing office the week of
August 11, 2003. Our review covered the period November 2002 through
August 14, 2003.

To achieve our objectives, we:

•   Obtained previous review and/or audit reports of the Milwaukee Hearing Office.

•   Evaluated conditions identified in the reports and determined whether OHA
    management addressed any noted deficiencies in a timely manner.

•   Reviewed and evaluated the Milwaukee Hearing Office’s performance for the past
    3 years.

•   Obtained and reviewed all recent Social Security Administration correspondence
    issued to Congress concerning the Milwaukee Hearing Office. We also assessed
    the correspondence impact on our review.

•   Identified and documented problematic conditions and action items identified in the
    April 15, 2003 Chicago Regional OHA report. We also requested the management
    staff of the Milwaukee hearing office provide evidence of the status on all action
    items.

•   Visited the Milwaukee Hearing Office to determine the status of actions taken
    through the use of interviews, observations, testing and authoritative documentation.

•   Determined whether actions taken at the Milwaukee Hearing Office did correct the
    identified deficiency.

•   Obtained documentation of OHA’s initiatives to reduce processing delays occurring in
    OHA nationwide.

The Social Security Administration operating component reviewed was the Office of the
Deputy Commissioner for Disability and Income Security Programs. We performed our
review in Milwaukee, Wisconsin, and Baltimore, Maryland, from July through September
2003. We conducted our review in accordance with Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.


Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)
                                                                                      Appendix B
April 15, 2003 Action Items and Status as of August 14, 2003


        REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                       OF HEARINGS AND APPEALS
                              A-13-03-23091

                                                             YES = 1          YES = 1           YES = 1

                                                                              MHO
#             CORRECTIVE ACTION1                         OIG VERIFIED                          ACTIONS
                                                                           REPORTED
                                                          COMPLETED        COMPLETED              NOT
                                                             8/14/032         10/31/033      COMPLETED4
    CASE MANAGEMENT
    Ensure data accurately reflect workload at
    any given time. There are approximately
1   1,230 cases waiting to be input into the                    1
    Hearing Office Tracking System. Also, there
    were over 712 pieces of unassociated mail.

    Provide intensive training for new managers
2   regarding management information and                        1
    workload management.

    Routinely solicit insightful information from
    expert staff on site as well as the assigned
3                                                               1
    regional office Systems Specialist and other
    expert staff, as necessary.

4   Address workload distribution imbalances.                                     1

    Develop a strategy for increasing the number
5                                                                                 1
    of cases in ready-to-schedule status.
    Case Review
    All cases should be placed in Unassigned
6                                                                                 1
    Writing status until assigned to an individual.




1
  Actions Items identified in the April 15, 2003 Office of Hearings and Appeals Chicago Regional Office
report.
2
  Actions items the Office of the Inspector General verified as completed.
3
  Action items the Milwaukee Office of Hearings and Appeals reported as complete as of
October 31, 2003. We did not independently verify these actions were completed.
4
  Action items the Milwaukee Office of Hearings and Appeals did not complete as of
October 31, 2003.

Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                                 B-1
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                    ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED      NOT
                                                                2                3
                                                         8/14/03          10/31/03   COMPLETED4
     Ensure all cases over 1,000 days old are
7                                                           1
     scheduled and processed.

     Ensure Hearing Office Tracking System
8    contains the correct current folder receipt            1
     date.

     Ensure staff understands the importance of
     documenting all files with report of contacts
9                                                                            1
     as to what actions and/or contacts were
     taken on the case.

     Ensure cases are assigned to the
     administrative law judge making the "good
10   cause" determination on the file, thus                                  1
     eliminating the need for multiple handling by
     the docket clerks.

     Overdue Diaries

     Management needs to review the On the
     Record and Notice to Show Cause diaries to
11                                                                           1
     determine whether these cases can be
     processed and closed out.

     Management needs to ensure that staff
12   follows-up and closes out their diaries in a                            1
     timelier manner.

     Fee Petitions

     Management must ensure all fee petitions
13                                                                           1
     are reviewed and closed out appropriately.


     Employees need refresher training on
     inputting fee petitions into Hearing Office
     Tracking System and the required
14                                                                           1
     documentation needed with the
     recommendations forwarded to the regional
     office.




 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-2
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                    ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED      NOT
                                                                2                3
                                                         8/14/03          10/31/03   COMPLETED4
     Missing Claim Files

     Case intake assistants should be given
     training on inputting information into the
15                                                          1
     Hearing Office Tracking System on a daily
     basis.


     Cases for the Madison satellite office should
16                                                          1
     be delivered directly to that office.

     Case Pulling

     Management must assess the productivity of
17   work performed on overtime, credit hours,                               1
     and flexi place.


     Case intake assistants should be taken off of
18                                                          1
     Flexiplace until they revamp the docket area.

     Congressional Inquiries and Critical Case
     Processing

     Management should review Hearing Appeals
     and Litigation Law Manual I-1-601 and I-2-
     140 with all employees. Any concerns with a
19                                                          1
     particular inquiry should be communicated to
     the congressional office that made the inquiry
     and to the Regional Chief Judge.

     Management must ensure critical cases
     receive personal attention of Office of
20                                                          1
     Hearings and Appeals personnel from
     beginning to end.

     Management should ensure refresher
21   training is provided to all staff regarding            1
     congressional inquiries and critical cases.




 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-3
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                    ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED      NOT
                                                                2                3
                                                         8/14/03          10/31/03   COMPLETED4

     DECISION WRITING
     Backlog Management
     Establish a general case assignment
22   procedure and procedure for inputting data in          1
     the Hearing Office Tracking System.

     Establish a special procedure for assigning
23   cases for flexiplace and for tracking                  1
     completion of cases.
     Clearly state expectations for cases to be
24   completed at home and for overall monthly                               1
     goals.
25   Regularly review decision writing reports.             1

     Hold regular staff meetings and informal
26                                                          1
     training sessions.


     Senior Attorney Program
     Cases reviewed by Senior Attorneys must be
27                                                          1
     reflected as Decision Writer Review.

     Implement a new process for on-the-record
28                                                          1
     decisions.

     Establish a procedure for Senior Attorneys to
29   review cases on receipt of additional medical          1
     evidence.

     ADMINISTRATION
     Time & Attendance & Leave Usage

     Employees must sign their first and last
30                                                          1
     name or first initial and full last name.

     Managers cannot serve as approving officials
31                                                          1
     for their own sign-in sheets.


 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-4
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                    ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED      NOT
                                                                2                3
                                                         8/14/03          10/31/03   COMPLETED4
     Sign-in sheets need to be kept in a locked
32                                                          1
     cabinet.
     Administrative assistants need to correct the
     leave balance in Federal Personnel Payroll
33                                                          1
     System and the Mainframe Time and
     Attendance System.
     Federal Personnel and Payroll System
     Personnel Actions

     The Hearings Office Director should
     complete a SSA-120 to delete the employees
34                                                                           1
     that no longer need Federal Personnel and
     Payroll System access.
     7B Extension Files
     Management should ensure the 7B files are
35                                                          1
     stored in a locked cabinet and purged.

     Purged documents should be returned to
36                                                                           1
     employees.
     Third Party Drafts
     Management must have the back-up cashier
37   become actively involved in the draft                  1
     processing.
     Management must ensure all documentation
38   has either an authorized signature or initials         1
     and dates.

     Signature line for #3403 must be removed
39                                                          1
     from the voided draft.

     Management should verify that
40   itineraries/hearings lists are attached when           1
     necessary and all travel vouchers are dated.

     The cashier should crosscheck the sub-object
41   codes on the draft documentation when                  1
     processing drafts to verify they both match.



 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-5
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                          YES = 1         YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                       OIG VERIFIED                  ACTIONS
                                                                         REPORTED
                                                        COMPLETED        COMPLETED      NOT
                                                                 2               3
                                                          8/14/03         10/31/03   COMPLETED4
     REAPS
     Management needs to establish trained
42                                                           1
     back-ups.
     Expert invoice processing should be taken
43                                                           1
     away from the Computer Assistant.

     The database needs to be reviewed for
44                                                           1
     accuracy and corrected as needed.

     The Monthly Expenditure Report must be run
45   at the end of the month and reviewed/signed                             1
     before transmitting data to the regional office.

     Supply Inventory/Monitoring

     Management should remove the old
     equipment from the shelves and place the
46   supplies from the floor on the shelves. Also,           1
     place all items such as cellular telephones
     and laptops in a locked cabinet.
     Travel Vouchers
     Hearings Office Director & Administrative
47   Assistant needs to ensure travel vouchers               1
     are completed within 5 days of return.

     All vouchers need to be reviewed for correct
48                                                           1
     sub-object code.

     Establish a back-up to process vouchers
49                                                                           1
     using Travel Manager.

     Medical & Vocational Experts

     Lead Case Technicians need to
     communicate with the schedulers more. For
50                                                           1
     example, how many hearing are being
     scheduled for each expert.




 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-6
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                    ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED      NOT
                                                                2                3
                                                         8/14/03          10/31/03   COMPLETED4
     Schedulers need to give the experts a longer
51   grace time in which to return their telephone          1
     calls.
     Management should ensure the Lead Case
52   Technicians get cases 30 days in advance to            1
     schedule.

     Management should go over the Medical
     Expert/Vocational Expert Quarterly Usage
53                                                          1
     Report and explain where improvement is
     needed.

     Management should ensure the Medical
54   Expert/Vocational Expert Quarterly Usage               1
     Report is sent timely to the regional office.

     Medical Expert and Vocational Expert access
55                                                          1
     to the office must be stopped immediately.

     Contract Hearing Reporters

     Remote site hearing monitors should sign in
56   no earlier than 30 minutes before the                  1
     hearing.

     Access to the office space by contract
     hearing monitors must be stopped
57                                                          1
     immediately, and the combination locks
     changed.

     SYSTEMS
     General Systems Issues

     Management should ensure a list of office
58   computer equipment is provided the                     1
     Information Technology Specialist.

     Management and Systems staff should have
59   their limits set at 30 megabytes instead of 15         1
     megabytes.


 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-7
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1      YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                    ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED      NOT
                                                                2                3
                                                         8/14/03          10/31/03   COMPLETED4
     A Senior Attorney's limit should be set back
60                                                          1
     to 15 megabytes instead of 30 megabytes.

     Management should ensure files users keep
     for longer than 1 year, should be archived to
61                                                          1
     the D drive of their workstation or moved to
     floppy disk.

     Computer Assistant should immediately
     begin to monitor the file space on the C, D,
62                                                                           1
     and E drives and take action to ensure they
     remain within acceptable limits.

     The Computer Assistant should immediately
     discontinue performing tasks that are outside
     the normal scope of her systems duties or
63   Hearing Office Tracking System data                    1
     integrity. For example, she should
     discontinue timekeeper as well as contractor
     invoice inputs duties.
     File Server and Systems Issues
     Computer Assistant should immediately
     begin working with office staff to make
64                                                          1
     necessary adjustments to folder sizes,
     number of files, and mailbox limits.
     Management should be more diligent in
     keeping track of server space. It is
65                                                          1
     mandatory that this be checked at least once
     a week.
     Management should ensure the Local Area
66   Network room is locked up at the end of the            1
     day.

     Management should ensure back-up tapes
67                                                          1
     are stored offsite.

     Management needs to initiate a systems
68   problem reporting procedure and inform staff           1
     on how to report systems problems.



 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                      B-8
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1       YES = 1

                                                                            MHO
#              CORRECTIVE ACTION1                     OIG VERIFIED                     ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED       NOT
                                                                2                 3
                                                         8/14/03          10/31/03    COMPLETED4
     Hardware problems that arise should be
69   addressed through the use of the new Virtual           1
     Call procedure.

     Systems Training Issues

     Management should ensure decision writers
70                                                                           1
     receive word processing software training.

     HEALTH, SAFETY &
     SECURITY
     General Safety and Security

     Management needs to install all Tier I
71                                                                            1
     security items as soon as possible.

     Management needs to change the
     combination to all the hearing room doors
72                                                          1
     and employee entrances if the codes are the
     same as the hearing rooms.

     Space/Furniture/Equipment Inventory

     Management needs to ensure employees
73   remove affixed items from the workstation                               1
     fabric panels.

     Management needs to establish a non-
74                                                          1
     computer equipment inventory.

     Bulletin Boards/Emergency Information

     Management needs to obtain bulletin boards
     to post evacuation and related information at
75   employee exits. The typeface should be                 1
     large enough to enable perusal without
     glasses.




 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                       B-9
          REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                         OF HEARINGS AND APPEALS
                                A-13-03-23091

                                                                YES = 1     YES = 1      YES = 1

                                                                              MHO
#               CORRECTIVE ACTION1                       OIG VERIFIED                   ACTIONS
                                                                           REPORTED
                                                          COMPLETED        COMPLETED      NOT
                                                                       2           3
                                                                8/14/03     10/31/03   COMPLETED4
      Inspections/Training/Mandatory Reports

      Management needs to ensure all fire
76    extinguishers are checked and annotated                      1
      monthly.

      Safety inspections should be conducted
      twice annually with the American Federation
77                                                                             1
      of Government Employees safety
      representative.

      Health and safety training should be
78                                                                                         15
      conducted for all staff.

      Incident reports are to be completed and
79                                                                 1
      timely filed.
      Physical Security Action Plan

      The Hearings Office Director needs to update
80    the Physical Security Action Plan to include                 1
      emergency information for the remote sites.

      OTHER ISSUES
      Employee Relations/Morale
      Management needs to dispel the perception
      that certain employees are being pre-
      selected for jobs. In addition, the Computer
81                                                                 1
      Assistant needs to perform her computer
      duties and not Administrative Assistant
      duties.




 5
     SSA reported it expects completion by November 14, 2003.

 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                       B-10
         REVIEW OF OPERATIONS AT THE MILWAUKEE, WISCONSIN, OFFICE
                        OF HEARINGS AND APPEALS
                               A-13-03-23091

                                                         YES = 1          YES = 1       YES = 1

                                                                            MHO
#               CORRECTIVE ACTION1                    OIG VERIFIED                     ACTIONS
                                                                         REPORTED
                                                      COMPLETED          COMPLETED       NOT
                                                                 2                3
                                                         8/14/03          10/31/03    COMPLETED4

     Management needs to ensure all employees
     are working within their position descriptions
     and all employees are treated fairly and
82   equitably in all aspects of personnel                                   1
     management. Case pulling is a grade duty
     for Senior Case Technicians, and all Senior
     Case Technicians should be pulling cases.

     Increased accountability of employees is
83   necessary, especially in the administration of         1
     the flexiplace program.
     Management needs to put a procedure in
     place for Spanish speaking calls and walk-ins
84                                                          1
     and for the translation of Spanish medical
     records.
     Staff Meetings

     Management should conduct regularly
85   scheduled staff meetings with all, including           1
     the administrative law judges.


     The Hearings Office Director should
86   schedule monthly meetings with the union               1
     representative to avoid impromptu meetings.

     Training
     Management and the Hearing Office
     Coordinator should concentrate on reaching
87   the monthly goal of 2 hours of training per                             1
     position type. This training is a mandate by
     the Regional Chief Judge.

     Encourage staff to attend Interactive Video
88   Training sessions. Many of these sessions                               1
     are pertinent to their workloads.

     TOTAL                                                  64               23           1




 Review of Operations at the Milwaukee, Wisconsin, OHA (A-13-03-23091)                        B-11
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                       Overview of the Office of the Inspector General



                                             Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                    Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                        Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                   Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
